LEONARD L. LEVENSON & ASSOCIATES
A PROFESSIONAL LAW CORPORATION

LEONARD L. LEVENSON*

424 GRAVIER STREET
FIRST FLOOR

___________

TELEPHONE (504) 586-0066
FACSIMILE

(504) 586-0079

NEW ORLEANS 70130

COLLEEN BOYLE GANNON

*A PROFESSIONAL LAW CORPORATION

CHRISTIAN W. HELMKE
DONNA R. BARRIOS

November 12, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C., 20543
Re:

Seantrey Morris v. Joseph Mekdessie, et al.,
No. 19-266

Dear Mr. Harris:
We have received the October 17, 2019 correspondence from your office advising that the Court has
requested that we file a response to the petition for a writ of certiorari filed in the above case. We
understand our response is currently due on or before November 18, 2019. Pursuant to Supreme
Court Rules 15.3 and 30.4, Respondents, Joseph Mekdessie, Brandon LeBlanc, Arthur S. Lawson,
and the City of Gretna, respectfully request a 23-day extension, or until December 11, 2019, within
which to file a brief in opposition to the petition. We have contacted counsel for the Petitioner, Mr.
Eric Shumsky, who has no objection to this requested extension.
The extension is necessary due to other pending legal matters and pre-existing legal deadlines, as
well as to allow our office sufficient time to fully research the issues presented in the petition,
including the alleged varying Circuit opinions regarding the Court’s holding in Heck v. Humphrey.
Petitioner previously received a 30-day extension within which to file his petition. Further, this is
the respondents’ first request for an extension of time, which is not being made for purposes of
delay, but rather to allow our office sufficient time to provide a complete and thorough brief in
opposition to the petition as requested by the Court.
Sincerely,
/s/ Leonard L. Levenson
424 Gravier Street, First Floor
New Orleans, LA 70130
Telephone: (504) 586-0066
Facsimile: (504) 586-0079
E-mail:
lenlawyer@aol.com
cwhelmke@gmail.com
dbarrios@bellsouth.net

